INTEREST RATES AND INTEREST CHARGES
Annual Percentage Rate
(APR) for purchases

A

Credit Score

B

C

D

10.25% 12.25% 13.25% 15.50%

				
Visa Classic

			

Visa Rewards

12.50% 13.50% 15.00% N/A

We will tell you in writing which rate applies
upon approval of your application. Rate based on credit score.

Shared Secured

13.50%

APR for Balance Transfers

The Annual Percentage Rate will be 2% higher than the stated interest rate based on your score.

APR for Cash Advances

The Annual Percentage Rate will be 2% higher than the stated interest rate based on your score.

How to Avoid Paying
Interest on Purchases

Your due date is 25 days after the close of each billing cycle. We will not charge
interest on purchases if you pay your entire balance by the due date each month.

Minimum Interest Charge

None

For Credit Card Tips from
the Consumer Financial
Protection Bureau

To learn more about factors to consider when applying for or using a
credit card, visit the website of the Consumer Financial Protection
Bureau at http://www.consumerfinance.gov.

FEES
· Annual Fee

None

Transaction Fees
· Balance Transfer
· Cash Advance
· Foreign Transaction Fees

0% of the amount of each transfer.
1.50% of transaction amount.
1% of transaction amount.

Penalty Fees
· Late Payment (15 Days or More) $10.00
· Returned Payment Fee
$15.00
· Over-the-Limit Fee
None

How We Will Calculate Your Balance: We use a method called “average daily balance (including new
purchases).”
The information about the cost of the card described on this application was printed on June 1, 2018 and was
accurate as of that date, but is subject to change after that date.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in
your account agreement.

GREATER SPRINGFIELD

CREDIT UNION
1030 Wilbraham Road, Springfield, MA 01109
Phone: (413) 782-3161 Fax: (413) 783-0142
www.grscu.org

Is it secure?
Yes, managing your cards with MyCardRules is

Plus, knowing that you’ve set rules, restrictions
and alerts that meet your specific spending
preferences adds another layer of fraud
detection and prevention, and gives you
added peace of mind.

Why is it a Better Way to Manage My Cards?
Because you can manage your card transactions
all in one place, right from your mobile device.
You have complete control of how, when, where
— and WHO uses your cards.

Alerts will show up just like any other
notifications you get on your mobile device.

• Set parental controls and monitoring

• Set a specific region where the card can be
used or restrict usage based on your mobile
device’s location

• Get instant alerts on certain types of
transactions, like when a transaction is		
declined

• Set transaction spending limits based on
your preferences, including dollar amount,
transaction type and merchant type

• Turn your card on or off

How Does MyCardRules let me Manage
My Cards
Just download the MyCardRules app from
Google Play™ or the App Store®. Then you
can set a wide range of controls and alerts on
all your cards. For example, you can:

What is MyCardRules?
MyCardRules is an easy-to-use mobile app that
lets you set card controls, add restrictions and
receive transaction alerts.

MyCardRules FAQ’s

Federally Insured by NCUA

LENDER

EQUAL OPPORTUNITY

East Longmeadow
157 Shaker Road
East Longmeadow, MA 01028
(413) 782-3161
Fax: (413) 525-4353

Main Office
1030 Wilbraham Road
Springfield, MA 01109
(413) 782-3161
Fax: (413) 783-0142

CREDIT UNION

GREATER SPRINGFIELD

• View recent transactions and more

• Manage alert preferences

• Set controls

• Turn card controls on/off

Next, you’ll create a username and password.
Once your account is created, you can log in
and access the “Card Details” screen.
From this screen you can:

• Security Code (usually on the back 		
of your card)

• Expiration Date

• Card Number

How do I get started?
After you download the MyCardRules app,
select “New User” and then enter your card
information to begin registration.
You’ll need to provide:

safe and secure. Your account is password
protected and highly encrypted.

www.grscu.org

CREDIT UNION

GREATER SPRINGFIELD

feel the
freedom...

®

Visa Credit Card
Application

Apply for a Credit Card
To apply for a Greater Springfield CU Visa® Credit Card, visit www.grscu.org,
call (413) 782-3161, or stop by any of our office locations. After approval,
your card is mailed within 10 business days.
• Low fixed rate
• No annual fee
• Rewards points
• Convenience to make purchases worldwide.
• Flexibility to make purchases in person, over the phone, or on the 		
		 Internet. Plus obtain a cash advance when you need it.

Layers of Protection
Loan Protect
This optional coverage helps to protect your credit and reduce financial
pressure in the event of death or disability.*
*Exclusions apply. Ask for details.

3-D Secure
3-D Secure offers additional fraud protection by analyzing the merchant’s
contextual data and then prompting consumers to verify their identity only
on high risk transactions.

Lost or Stolen Card Reporting
Enjoy peace of mind knowing that if your Visa card is ever lost or stolen,
assistance is a phone call away. Please call 800-682-6075 for 24/7, 365 days
a year assistance or go to www.reportmycards.com.

Take Full Control of Your Cards
With MyCardRules,™ you decide when, where and who uses your cards.

Manage Your Card Spending Right From Your Mobile Device
Turn your cards on or off, set spending limits and get alerts. All with a few quick taps

Rewards
• 1% cash back on all transactions
which is deposited to a share
account on June 1 and December 1.

*********

LOGIN

Visa Credit Card Application

A table that includes the APRs and other required cost disclosures for credit card applications is on the reverse side of this application.

Check the appropriate box to indicate the type of credit for which you are applying.

Debt Protection

Yes

Individual credit

No See below signature and disclosure

Visa Classic

Joint credit

Visa Rewards

Credit limit requested: $ _____________________

APPLICANT Name						

		

Date of Birth

		

Shared Secured

Number of cards desired?

Street										

Social Security Number

Driver’s License Number and State

City, State, Zip								

Home Phone		

Number of Dependents

Gross Annual Income $			

Net Monthly Pay $		

1

2

Mother’s Maiden Name

Email Address						

Ages

		

Are you self employed?

❑ Yes ❑ No

													

(Must provide 2 years of tax returns)

Current Employer					Business Phone Number					Title/Rank/Grade
Type of Business 					

Business Address				

			

Start Date

Previous Employer				Previous Business Address						Title/Rank/Grade
CO-APPLICANT NAME

AUTHORIZED USER NAME		

Date of Birth

		

Start Date/End Date

Mother’s Maiden Name

CHECK ONE
Street										

Social Security Number

Driver’s License Number and State

City, State, Zip								

Home Phone		

Number of Dependents

Gross Annual Income $			

Net Monthly Pay $		

Email Address					

Ages

Are you self employed?

❑ Yes ❑ No

													
Current Employer				

Business Phone Number					­
Title/Rank/Grade

Type of Business 				

Business Address			

(Must provide 2 years of tax returns)

				

Start Date

Previous Employer				Previous Business Address						Title/Rank/Grade

LIST ALL DEBTS. Attach other sheets if necessary.
Debts			

		

Start Date/End Date

NOTE: Alimony, child support, or separate maintenance income need not be revealed if you do not choose to have it considered.

Owed to			

Address 			

Account No.

Present Balance

Monthly Payments

Amount Past Due

Mortgage or Rent
Child Support,
Alimony or
Maintenance

FINANCIAL REFERENCES
Share Draft or Checking Account Number / Amount

Name and address of depository							

Phone

Savings Account Number / Amount

Name and address of depository 							

Phone

The credit union is relying on what you stated in this application, and you acknowledge that everything you have stated is true and correct and that you have provided a COMPLETE listing of all your debts and obligations. You authorize the Credit
Union to obtain credit reports in connection with this application for credit and for any update, increase, renewal, extension, or collection of the credit received. You understand that the Credit Union will rely on the information in this application
and your credit report to make its decision. If you request, the Credit Union will tell you the name and address of any credit bureau from which it received a credit report on you. ­­­
Applicant Signature			

Date			

Co-Applicant Signature			

X

Date

X
This Contract is voluntary and not required to obtain credit. We will not consider whether or not You elect protection in making a credit decision.

YOU ELECT THE
FOLLOWING OPTION:

Life & Disability

Disability

Life

(check only one box)

· Life
· Disability

· Disability

· Life

Program Fee:
Cost per $100 of the Monthly
Outstanding Loan Balance*

Single
$0.189

Single			
$0.12

For the Option elected above, You choose (check only one box):
Joint Protection
This Contract protects the Borrower(s) listed above who elected protection.
The protected Borrower(s) may not qualify for all benefits.

Single
$0.069

Single Protection for Borrower 1

No Protection

Joint
$0.11

Single Protection for Borrower 2

NOTICES: *If the Outstanding Balance is greater than $50,000, the rate will not be applied to the amount that exceeds $50,000.
The Contract contains certain terms, conditions and exclusions. Subject to those terms, conditions and exclusions, You are eligible for protection under this Contract if You are a Borrower on the
Loan on the Effective Date of Protection and meet the eligibility requirements below.
ELIGIBILITY QUESTIONS: If electing Disability, You must answer Question 1.
1. Are You working twenty-five (25) hours or more per week?

Borrower 1

Yes

No

Borrower 2

Yes

No

If at least one Borrower answered “Yes” to Question 1, both Borrowers are eligible for Disability.
We will give You additional information before You are required to pay for Greater Springfield Credit Union Payment Protection. This information will include a copy of the Contract containing the terms of Greater Springfield Credit Union
Payment Protection. There are eligibility requirements, conditions and exclusions that could prevent You from receiving benefits under Greater Springfield Credit Union Payment Protection. You should carefully read the Contract for a full
explanation of the terms of Greater Springfield Credit Union Payment Protection. You may terminate protection on Your account(s) at any time by providing Us with written notice at least five (5) business days prior to the requested termination
date. If You do so within (30) days of purchasing protection, We will credit Your Outstanding Balance for any fees charged for the protected account(s).
Your signature or authentication below means: (a) that You meet the eligibility requirements show above; (b) that Your election above will remain in effect, according to the terms of the Contract, unless subsequently modified; (c) that You
agree to the Contract; (d) that You agree to pay for and let Us add the Program Fee to Your Loan balance each month, and may be subject to finance charges like the rest of Your Outstanding Balance; (e) that the fee You are charged for this
protection is subject to change; and (f) if the “No Protection” checkbox is marked or if no checkbox is marked in the Options section, You do not have protection.
Borrower 1 Signature			

X

Date			

Borrower 2 Signature			

X

RETURN THIS APPLICATION TO GREATER SPRINGFIELD CREDIT UNION

Date

